No. 19-

 

 

In THE
Supreme Court of the United States

CUSHMAN & WAKEFIELD, INC.,

Petitioner,
v.

YuRY RINSKY,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,982 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 5, 2019.

Colin Casey fan

Wilson-Epes Printing Co., Inc.
